   April 5, 2002




Supply Inventory
Management
Quality Deficiency Reporting
Procedures for Naval Repair Parts
(D-2002-080)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
NSN                   National Stock Number
PDREP                 Program Data Reporting and Evaluation Program
                       Office of the Inspector General, DoD
Report No. D-2002-080                                             April 5, 2002
 (Project No. D2001CF-0090)

                         Quality Deficiency Reporting
                       Procedures for Naval Repair Parts

                                Executive Summary

Introduction. This report addresses the Navy and Marine Corps quality assurance
programs for the effective reporting and tracking of deficient repair parts. It discusses
the use of deficiency reports to remove nonconforming items from inventory and to
prevent those items from reentering the supply system. In FY 2000, the Navy recorded
over 8,200 product deficiency reports involving new or newly reworked repair parts.

Objectives. Our objective was to determine whether the Navy and Marine Corps were
effectively reporting and tracking deficient repair parts within their commands.
Specifically, we determined whether logistics managers and quality assurance
specialists use deficiency reports to remove nonconforming inventory from depots and
screen potentially defective inventory from reentering depots. We also reviewed the
management control program as it relates to the audit objective.

Results. The Navy Nuclear and Submarine Product Quality Deficiency Programs were
effectively managed for tracking and reporting deficient repair parts. However, other
Navy and Marine Corps elements were not effectively reporting and tracking repair
parts and were not removing the nonconforming items from inventory. In addition,
there was no assurance that items reentering the inventory were screened to ensure that
they were not nonconforming. Overall, databases were inaccurate, oversight was
lacking, communication between entities was broken down, and spare parts inventories
had as many as 1.4 million potentially nonconforming items valued at $345 million.

The Naval Air Systems Command’s current staffing shortages, coupled with the lack of
emphasis and oversight, contributed to overall ineffective management of the quality
deficiency reporting program. As a result, potentially nonconforming items, valued at
as much as $163 million and involving as many as 138,000 individual items, were not
screened, nor given consideration for removal from inventory (finding A).

Quality assurance staff at the Naval Inventory Control Point, Mechanicsburg,
Pennsylvania, did not establish management control procedures to ensure that Naval
Sea Systems Command-managed items that were previously identified as
nonconforming were removed from Navy depots and supply inventories. As a result,
as many as 331,000 potentially nonconforming items, valued at as much as $66 million,
were either issued to or remained available for issue to Navy users (finding B).




                                            i
Procedures to identify, investigate, and resolve nonconforming items procured with
contractor warranties were ineffective at the Marine Corps Logistics Base, Albany,
Georgia. The Marine Corps has no assurance that nonconforming items procured with
contractor warranties were corrected or eliminated from inventory. In addition, the
Marine Corps may have as many as 8,800 items in inventory or in use with a
procurement value of as much as $87 million that are deficient and unreliable
(finding C).

Finally, during the period of February 2000 to August 2001, the Navy did not ensure
that nonconforming Defense Logistics Agency-managed items were posted to the
Defense Distribution Depots logistical database for screening or removal. As a result,
as many as 965,000 potentially nonconforming items, valued at as much as $29 million,
purchased from 372 contracts were not screened, removed, or prohibited from reentry
into the DoD supply system (finding D).
See Appendix A for details of the management control program as it relates to the
identification and removal of items previously identified as nonconforming from
Navy use.

Management Action. In response to our Interim Results Memorandum of July 2,
2001, the Naval Air Systems Command acknowledged the breakdown of the technical,
managerial, and administrative functions of the Naval Quality Deficiency Reporting
Program. The command took appropriate action to increase management awareness,
training, and support of the program. The command also resolved the 89 Category 1
deficiencies reported in the memorandum. Regarding the issue in the Interim Results
Memorandum of removing defective emergency escape breathing devices, the Naval
Supply Systems Command agreed that it could not account for all 87,000 devices that
were procured but disagreed that there are potentially 42,000 devices remaining in the
Navy fleet. The Navy stated that 7,095 of the devices were unaccounted for.
However, the command took action to identify the manufacturer, physically inspect,
and remove breathing devices that were previously determined to be defective.

Summary of Recommendations. We recommend that the Assistant Secretary of the
Navy for Research, Development, and Acquisition direct the Naval Inventory Control
Point, Philadelphia, Pennsylvania, to be the centralized activity for management control
and oversight functions for the Naval Air Systems Command’s quality deficiency
reporting program. We recommend that the Naval Air Systems Command complete a
one-time review to determine whether nonconforming items are still stocked in
inventory. We recommend that the Commander, Naval Inventory Control Point
Mechanicsburg, Pennsylvania, develop and implement a comprehensive followup
system to track quantities of nonconforming items, implement notification procedures,
and provide appropriate disposition instructions to DoD customers based on
procurement quantities of the items. We recommend that the Commanding General,
Marine Corps Logistics Base develop and implement a comprehensive trend analysis
system to identify trends of potentially nonconforming items and establish procedures to
screen these items; notify the Defense Contract Management Agency of potential
contractor-related deficiencies; and make maximum use of existing contractor
warranties. We also recommend that the Commanders, Defense Supply Centers serve
                                           ii
as action points to ensure that screening alerts are initiated and to reclassify or remove
defective material from inventory. Also, we recommend that the supply centers work
with the Navy to reconcile items in the Navy Defective Material Summary Report. We
further recommend that the Commander, Defense Distribution Center monitor the
Defense Supply Centers and the Military Departments to ensure timely and appropriate
actions be taken.

Management Comments. The Navy nonconcurred with centralizing the management
and control of the Naval Air Systems Command quality deficiency reporting program at
the Naval Inventory Control Point, Philadelphia, Pennsylvania. However, the Navy
agreed to develop a system to track quantities of nonconforming items based on
procurement quantities of the items. The Navy also concurred with completing a one-
time review of unprocessed deficiency reports and take necessary screening actions.
The Navy also partially concurred with implementing a notification procedure to
activities that were issued nonconforming items and providing appropriate disposition
instructions to the activities but stated the current stock screening was adequate.
Finally, the Navy agreed to develop and implement comprehensive quality assurance
procedures for all Marine Corps weapon systems by September 30, 2002. The
Director, Defense Logistics Agency agreed with the intent of draft report
recommendation to ensure that deficiency reports are reported to the distribution centers
and proposed alternative corrective actions. See the Finding section of the report for a
discussion of management comments and to the Management Comments section of the
report for a complete text of the comments.

Audit Response. Implementation of a system to track nonconforming items is an
acceptable alternative action because it satisfies the intent of the recommendation to
improve management control and oversight of the Naval Air Systems Command quality
deficiency reporting program. We do not agree that the current Navy followup and
tracking systems for nonconforming assets are uniformly applied and request the Navy
to provide additional comments on the recommendation. We also requested the Navy
to comment on a new recommendation to provide the Defense Supply Centers with
screening alerts contained in its Defective Material Summary Reports. Finally, we
agree with the alternative corrective actions proposed by the Defense Logistics Agency
but request additional detail on the proposed actions. We request that the Navy and the
Defense Logistics Agency provide comments on the final report by June 5, 2002.




                                            iii
Table of Contents

Executive Summary                                                        i


Introduction
     Background                                                          1
     Objectives                                                          2
     Summary of Results                                                  2

Findings
     A. Adequacy of the Naval Air Systems Command Product Quality
          Deficiency Reporting Program                                   4
     B. Adequacy of Screening and Removing Nonconforming Items          12
     C. Adequacy of Quality Assurance Procedures-Items with Recurring
          Deficiencies Procured with Contractor Warranties              16
     D. Nonconforming Defense Logistics Agency-Managed Items            21

Appendixes
     A. Audit Process
           Scope                                                        24
           Methodology                                                  24
           Management Control Program Review                            25
     B. Prior Coverage                                                  28
     C. Interim Results Memorandum on Navy Quality Deficiency
           Reporting Program                                            29
     D. Navy Response to Interim Results Memorandum                     32
     E. Report Distribution                                             37

Management Comments
     Department of the Navy                                             39
     Defense Logistics Agency                                           46
Background
    Navy Quality Deficiency Reporting Program. Activities use deficiency
    reports to identify deficiencies in supplies and repair parts that may indicate
    nonconformance with contractual or specification requirements or substandard
    workmanship. Deficiency reports are targeted toward reporting possible
    deficiencies in quality assurance that occurred during the manufacturing or
    rework process. The Naval Air Systems Command uses quality deficiency
    reports for new or newly reworked items, whereas the Naval Sea Systems
    Command and the Marine Corps use the reports for not only new and reworked
    items but also for items that do not fulfill their expected purpose or fail
    prematurely. The goal of the deficiency reporting program is to improve the
    quality of work done by contractors and depot maintenance activities as well as
    to sustain sufficient repair parts inventory in a positive readiness condition. The
    Navy uses the Product Data Reporting and Evaluation Program (PDREP) to
    electronically report all deficiency reports in one, consolidated database.

            Product Data Reporting and Evaluation Program. The Navy
    established the PDREP to decrease material ownership costs, measure the
    effectiveness of the reporting system, initiate corrective action, and evaluate
    contractor performance. One segment of the PDREP provides a standardized
    database for deficiency reports to improve component quality and ensure quality
    parts to all Navy ships and organizations.

           Screening and Action Point Responsibilities. In order to obtain
    information required by PDREP, the Navy has implemented an extensive
    organizational network to process deficiency reports. Deficiency reports are
    submitted to a screening point, based on the type and intended use of the item
    found to be deficient. The screening point ensures that:

       •   adequate and accurate information is reported or can be obtained
           regarding the deficient item,

       •   defective items are available and can be produced for an investigation,
           and

       •   current information is available on the contractor who supplied the item.

    The screening point assigns the deficiency report to an action point for the
    independent investigation and resolution of the reported deficiency. In
    FY 2000, the Navy reported that more than 65 activities functioned as action
    points. The action point may enlist assistance for completing the investigation
    through activities designated as support points. Support points can include
    contract administration offices, engineering support activities, contracting
    activities, and supply activities. The action point is also required to notify the
    appropriate screening point of the investigation that would alert its users and
    storage depots and request screening and/or suspension of depot stock of like
    items, as appropriate. Finally, pertinent information regarding the deficiency
    investigation and resolution is reported to the screening point where the
    deficiency report is closed.

                                         1
     DoD Initiative. On December 3, 2001, the Department of Defense Business
     Initiative Council, Executive Steering Committee, approved a DoD-wide
     initiative to improve the inter-service product quality deficiency reporting
     business process. Specifically, the initiative emphasized developing and
     implementing methodology to seamlessly share quality deficiency data among all
     Military Departments and Defense agencies. These improvements can occur if
     Joint Service regulations are amended as necessary to allow for the seamless
     sharing of quality deficiency data.

Objectives
     Our objective was to determine whether the Navy and Marine Corps were
     effectively reporting and tracking deficient repair parts within their commands.
     Specifically, we determined whether logistics managers and quality assurance
     specialists use deficiency reports to remove nonconforming inventory from
     depots and screen potentially defective inventory from reentering depots. We
     also reviewed the management control program as it relates to the audit
     objectives. See Appendix A for a discussion of the audit process and the
     management control program review. See Appendix B for prior coverage
     related to the audit objectives.

Summary of Results
     We visited six screening and action points for the Naval Air Systems Command,
     Naval Sea Systems Command, and the Marine Corps to review quality
     deficiency reports. The six activities served as both screening and action points.
     We also visited six Defense Distribution Depots to determine whether deficient
     items at screening and actions points were removed from inventory. Because
     each condition was unique to each command, we presented these conditions in
     four separate findings. Table 1 summarizes the deficiency reports related to
     new or reworked items closed in FY 2000 for the activities visited, the number
     of deficiency reports reviewed at each activity, and the number of national stock
     numbers (NSNs) described in the deficiency reports. It also summarizes those
     NSNs with multiple deficiency reports.

                              Table 1. Deficiency Reports Reviewed
                                      Reported                             NSNs
                                                   Deficiency
                                       FY 2000                              With Multiple
             Naval Activity                         Reports
                                      Deficiency                Reviewed      Deficiency
                                                   Reviewed
                                       Reports                                 Reports
      Headquarters, Naval Air
                                         43           29          25              3
         Systems Command
      Aviation Depot–Cherry Point      1,029          58         45               9
      Aviation Depot–Jacksonville        497          35         28               5
      Aviation Depot-North Island        578          49         31               8
      Inventory Control Point,
                                        947           94          40             12
         Mechanicsburg
      Marine Corps Logistics Base–
                                       1,087         272          30             24
         Albany
              Total                    4,181         537         199             61

                                               2
The Navy Nuclear and Submarine Product Quality Deficiency Program was
effectively managed for tracking and reporting deficient repair parts. However,
other Navy and the Marine Corps elements were not effectively reporting and
tracking deficient repair parts within their commands.

    •   Naval Air Systems Command Headquarters understaffing and lack of
        emphasis and oversight contributed to a backlog of unprocessed
        deficiency reports and resulted in potentially defective items being
        undetected. In addition, the lack of oversight by the Command
        Headquarters to the Aviation Depots resulted in inconsistent quality
        assurance procedures when the defective item was recommended for
        screening.

    •   Naval Inventory Control Point, Mechanicsburg, Pennsylvania, followup
        procedures did not ensure that all applicable and previously identified
        defective items were removed from inventory.

    •   The Marine Corps Logistics Base, Albany, Georgia, did not effectively
        identify, investigate, and resolve items reported on deficiency reports as
        nonconforming when a contractor warranty was involved. In addition,
        Marine Corps did not implement trend analyses to identify systemic
        causes of multiple deficiencies.

    •   During the period of February 2000 to August 2001, the Navy did not
        ensure that nonconforming Defense Logistics Agency-managed items
        were posted to the Defense Distribution Depots logistical database for
        screening or removal.

Table 2 summarizes 274 NSNs that may be deficient and were not properly
screened and removed from Naval use. The 274 NSNs included as many as
1,443,000 items purchased, with a total procurement value of $345.5 million.

          Table 2. Impact of Deficiency Reporting Findings
                                                      NSNs
    Synopsis of Deficiency
                                    Number                           Total Cost
                                                Units Purchased
                                   Impacted                          (millions)
NSNs not screened                    36              146,000          $246.5
Deficient NSNs not followed-up        7              332,000            69.7
Deficient NSNs not identified       231*             965,000            29.3

             Total                    274             1,443,000        $345.5
*Deficiency reports were not reviewed. The NSNs were identified by the Navy, but
not provided to the Defense Distribution Depots (finding D).




                                        3
            A. Adequacy of the Naval Air Systems
               Command Product Quality
               Deficiency Reporting Program
            The Naval Air Systems Command did not have an effective product
            quality deficiency reporting program. The program was ineffective
            because the Command had not adequately staffed and funded it. As a
            result, a backlog of deficiency reports accumulated, and potential defects
            went undetected. Also, potentially nonconforming items, valued at more
            than $163.1 million and involving as many as 138,000 individual items,
            were either not screened or confirmed to be removed from inventory.
            Therefore, these potentially nonconforming items were available for
            issue, and their use could impact system performance and readiness.

Criteria for Deficiency Reporting
     Secretary of the Navy Instruction 4855.5B, “Product Quality Deficiency Report
     Program,” May 1997, provides policy guidance for reporting, processing, and
     investigating procedures for nonconforming items identified by deficiency
     reports. The Instruction states the Navy will:

        •   conduct an investigation, if necessary, to pinpoint the cause of the
            deficiency,

        •   determine the responsibility for the cause of the deficiency,

        •   determine whether the deficiency has recurred and has been previously
            reported,

        •   take necessary action to correct the existing deficiency and preclude its
            recurrence, and

        •   issue notifications to users of the items, if applicable.

     Chief of Naval Operations Instruction 4790.2H, “The Naval Aviation
     Maintenance Program,” April 2001, defines the roles that specific Naval
     Aviation activities serve in the deficiency reporting process. The instruction
     emphasizes that Naval Aviation Depots’ quality assurance organizations serve as
     the focal point for coordinating the internal effort to ensure that deficiency
     reports are processed, investigated, and responded to within established
     deadlines. The instruction also requires that Navy supply activities conduct
     screening actions for nonconforming items.




                                          4
Management of the Headquarters, Naval Air Systems
 Command Quality Deficiency Reporting Program
    At Headquarters, Naval Air Systems Command, a complete breakdown in the
    technical, managerial, and administrative functions of the Naval quality
    deficiency reporting program existed as of mid-2001. Specifically, staffing and
    contractual funding reductions had rendered administration of the Command’s
    product quality deficiency reporting program non-operational. The Command
    Headquarters Quality Division neither maintained a deficiency reporting
    function as required, nor directed item screening when warranted.

    Staffing and Funding Reduction. The Naval Air Systems Command’s
    Systems Engineering Department has functional responsibility for the
    management of the deficiency reporting program. However, Department
    managers had de-emphasized the deficiency reporting program. In February
    1999, the Systems Engineering Department experienced funding reductions that
    led to a reduction in the in-house staff from seven to three and terminated the
    support service contract. Prior to the funding reduction, the quality deficiency
    program was staffed with 5 to 7 in-house quality assurance staff and
    10 contractor employees. Since February 1999, staff reductions and program
    de-emphasis have caused backlogs of at least 1,069 unprocessed quality
    deficiency reports, potentially affecting thousands of Navy items.

    Deficiency Report Backlog. The Product Data Reporting and Evaluation
    Program (PDREP) database shows that the Command Headquarters closed
    104 Naval Air Systems Command system-wide deficiency reports during
    FY 2000. We identified at least 1,069 unprocessed deficiency reports submitted
    to Command Headquarters from the Naval Aviation Depots. In addition, the
    Naval Aviation Depots reported a total of 2,104 deficiency reports closed in
    FY 2000 from their local databases. As a result, the Command Headquarters
    could not account for the total Naval Air Systems Command-wide deficiency
    reports. We further determined the number of deficiency reports closed by the
    Command in prior years. Figure 1 shows the number of deficiency reports that
    the Command closed from FY 1996 through FY 2000. Note the downward
    trend beginning in FY 1998.


                      5000
                                    3829
                      4000
         Deficiency
          Reports




                      3000   2366             2098
                      2000
                                                         921
                      1000                                      104
                         0
                             1996   1997      1998       1999   2000

                                           Fiscal Year



    Figure 1. Headquarters, Naval Air Systems Command, Deficiency Reports
    Processed in the Product Data Reporting and Evaluation Program
                                               5
     We addressed our concerns regarding the backlog of deficiency reports in a
     July 2, 2001, memorandum to the Secretary of the Navy. The Naval Air
     Systems Command took prompt corrective action and assigned additional staff to
     reduce the deficiency report backlog and to process daily receipts of new
     deficiency reports. Therefore, we will make no recommendation in this report
     regarding the deficiency report backlog at the Command Headquarters. See
     Appendix C for our memorandum addressing the breakdown of the deficiency
     reporting program at the Command Headquarters, and Appendix D for the
     August 20, 2001, Navy reply.

     Screening Procedures. Chief of Naval Operations Instruction 4790.2H, “The
     Naval Aviation Maintenance Program,” defines the procedures and
     responsibilities of the Headquarters, Naval Air Systems Command, regarding
     the processing of deficiency reports. The instruction requires the Command
     Headquarters to serve as a screening point and action point for the aircraft parts
     for which it maintains accountability.

     We reviewed 29 of the 43 deficiency reports for new item procurements
     processed at the Command Headquarters. The 29 deficiency reports related to
     25 NSNs. Nine of the 29 deficiency reports showed that an investigation was
     conducted, of which only 3 deficiency reports identified the root cause of the
     deficiency. Root causes for the remaining six deficiency reports were not
     investigated because the deficiencies were considered as isolated incidents that
     could not be duplicated, the items were covered by contractor warranties, or
     information on the deficiencies was lost or was not made available. The quality
     assurance specialists recommended neither screening nor inventory removal for
     4 of the 25 NSNs, consisting of 119 individual items valued at $42.5 million,
     even when these actions were warranted.

     For example, the Navy received a deficiency report for night vision goggles that
     were assembled with a type of glue that rendered the lens assemblies
     inoperative. The investigation reported the root cause as improper materials
     workmanship. The corrective action for this deficiency required the contractor
     to change its manufacturing procedures. There was no screening action
     recommended by the quality assurance specialist, and no attempt was made to
     determine the quantity of goggles on-hand with the deficiency.

     The Defense Contract Management Agency, Northern Europe submitted two
     deficiency reports addressing a nonconformance with technical specifications for
     the F-18 Aircraft engine. Command Headquarters conducted no investigation
     for either deficiency report. Furthermore, there was no evidence that the
     20 engines, with a procurement value of $42 million, in inventory at the activity
     were examined.

Deficiency Reporting at Naval Aviation Depots
     Chief of Naval Operations Instruction 4790.2H requires Headquarters, Naval
     Air Systems Command to enter into the PDREP database all information
     involving Naval Aviation deficiency reports, including deficiency reports
     generated from the three Naval Aviation Depots: Cherry Point, North Carolina;
     Jacksonville, Florida; and North Island, California. The Command

                                          6
Headquarters is also responsible for coordinating deficiency report processing
between the Naval Aviation Depots and Naval Inventory Control Point.
Therefore, it is the responsibility of the aviation depots to forward all deficiency
reporting information to the Command Headquarters for processing into the
automated database. Each of the three aviation depots has the responsibility for
acting as the screening and action point for the repairable items for which they
maintain accountability.

Screening Nonconforming Items. The Navy has not published specific
guidance that dictates when the quality assurance specialist should screen a
potentially nonconforming item. Rather, the decision to screen a potentially
nonconforming item must be initiated by quality assurance specialists, exercising
sound judgment. As a result, we determined that two of the three Naval
aviation depots did not recommend potentially nonconforming items for
screening. Table 3 shows the number of deficiency reports we reviewed at the
aviation depots, the number of NSNs related to the deficiency reports, and the
number of NSNs we believe warranted a screening action.

  Table 3. FY 2000 Deficiency Reports Reviewed at Naval Aviation Depots

                                                  Nonconforming NSNs
Naval Aviation      Deficiency
   Depots        Reports Reviewed                  Did not Confirm       Warranted
                                     Reviewed
                                                      Screening          Screening
Cherry Point            58               45               2                  0
Jacksonville            35               28               0                 12
North Island            49               31               0                  6

        Total          142            104                 2                 18


        Naval Aviation Depot, Cherry Point. The Cherry Point Aviation
Depot was the only aviation depot we visited that recommended that
nonconforming items be screened and possibly removed from inventory. The
Depot quality assurance division recommended to the inventory managers that
nonconforming items be screened. However, the inventory managers did not
report to the depot when nonconforming items were screened. The quality
assurance division at the aviation depot did not follow up with the inventory
managers to ensure that their recommendations were completed. We reviewed
deficiency reports for 44 nonconforming NSNs, 3 of which the aviation depot
recommended a screening action. No documentation existed to confirm that two
of the three nonconforming NSNs, involving as many as 1,159 individual items
valued at more than $3.8 million, were screened.

        Naval Aviation Depot, Jacksonville. The Jacksonville Aviation Depot
quality assurance staff did not recommend that a potentially nonconforming item
be screened unless the item incurred one Category I deficiency report (given
when the nature of the deficiency is life threatening) or three Category II
deficiency reports (all other deficiencies). We reviewed 35 deficiency reports
for 28 NSNs and believe that 12 NSNs, affecting as many as 135,934 items,
valued at more than $72.5 million, warranted screening actions. Five of the
12 NSNs incurred more than 1 deficiency report but were not screened. The
                                     7
remaining seven NSNs also required screening, but had only one deficiency
report. At our exit conference, the Depot Quality Competency Director
officially prohibited the current practice of not recommending screening actions
when fewer than three Category II deficiencies were reported. Therefore, no
recommendation will be made on delaying screening actions until three
deficiency reports are reported.

For example, two deficiency reports that were submitted to the Jacksonville
Aviation Depot cited a deficient radar receiver. The Defense Contract
Management Agency did not perform an investigation on the receiver because
the contractor no longer manufactured the item. The Defense Contract
Management Agency recommended that the Navy issue a repair contract to be
paid by the original parts contractor to fix the nonconforming receiver. No
action was taken on this deficiency report recommendation because only two
deficiency reports were submitted to the aviation depot. The Navy procured
135 radar receivers for $9.6 million. In July 2001, 21 receivers were still
in stock at Naval depots and were available for issue. Because the depot
took no action to screen on-hand items, defective items could be issued
to Navy activities.

        Naval Aviation Depot, North Island. The North Island Aviation Depot
quality assurance specialists stated that they requested a screening action if the
Defense Contract Management Agency quality assurance staff recommended an
item be screened. However, the Defense Contract Management Agency quality
assurance staff were not responsible for recommending a screening action. The
North Island quality assurance staff were responsible for making the necessary
screening decision and forwarding the recommendation to the inventory
managers. We reviewed 49 deficiency reports relating to 31 NSNs. We believe
that 6 of the 31 NSNs, affecting as many as 1,163 items valued at more than
$44.4 million, warranted screening actions.

For example, two of the deficiency reports that were submitted to the North
Island Aviation Depot were for a circuit card assembly. The deficiency was that
the circuit cards produced error messages. These malfunctioning circuit card
assemblies could pose a considerable problem when inoperable in a deployment
situation. The Defense Contract Management Agency initiated an investigation
and determined that the contractor who supplied these circuit card assemblies
was no longer in business. According to Navy procurement staff, these circuit
card assemblies were purchased from a different contractor, but the
investigation did not identify this contractor. Both deficiency reports were
closed by quality assurance specialists at the North Island Aviation Depot and
will remain closed unless additional information is made available. The
inventory manager was not notified of these deficient circuit card assemblies or
requested to screen like circuit card assemblies in inventory. We identified
three potentially defective circuit card assemblies in inventory at two locations
that were available for issue to Navy users.

Potentially Nonconforming Items not Screened. Table 4 lists the total
quantity and costs of the potentially nonconforming items that were not screened
by or confirmed to be removed from inventory by Command Headquarters and
the three Aviation Depots.


                                    8
             Table 4. Value of Potentially Nonconforming Items Not Screened
                                                                             Total Cost
      Action Point        Item                         Items Purchased
                                                                             (in dollars)
      HQ                  Electrical Contact Ring                    79    $      48,348
      HQ                  Lens Assembly               Data Not Available        189,000
      HQ                  Aircraft Panel Assembly                    20         237,780
      HQ                  F-18 Engine                                20      42,000,000
      Cherry Point        Ball Bearings*                          1,049       1,085,191
      Cherry Point        Gas Turbine Nozzle*                       110       2,685,900
      Jacksonville        Fuel Cell                                  56         431,872
      Jacksonville        Shaft Support                           1,387         403,757
      Jacksonville        Pump                                       83         357,704
      Jacksonville        Fuel Pump                                    7        224,148
      Jacksonville        Jet Engine Component                      269       6,534,204
      Jacksonville        Electric Tube Transmitter                 263       3,218,448
      Jacksonville        Fan Valve                              19,387       2,658,360
      Jacksonville        Sleeve Valve                               62         278,504
      Jacksonville        Turbine Rotor Blade                   114,259      48,721,194
      Jacksonville        Cylinder                                   26           85,892
      Jacksonville        Interface Device Panel      Data Not Available
      Jacksonville        Radar Receiver                            135       9,612,810
      North Island        Receiver                                  952      41,897,794
      North Island        Circuit Card Assembly       Data Not Available
      North Island        Computer Converter          Data Not Available
      North Island        Pylon                                      21         867,573
      North Island        Piston                                    170       1,462,000
      North Island        Antenna                                    20         126,100

            Total                                               138,375    $163,126,579

      *Screening recommended but not confirmed


Naval Inventory Control Point, Philadelphia
     Criteria for Naval Inventory Control Point. Naval Inventory Control Point
     Instruction 4400.73, “Processing Quality Deficiency Reports on Aviation
     Material,” August 13, 1999, provides the organizational framework and assigns
     responsibility for coordinating aviation-related deficiency reports to the
     Inventory Control Point quality department. The instruction further states that
     the Engineering and Product Directorate, Product Quality Department, Naval
     Inventory Control Point, Philadelphia, Pennsylvania, will:

        •    have program responsibility and function as the coordination component
             within the Naval Inventory Control Point for all aviation-related
             deficiency report actions. The coordination responsibilities include
             receiving incoming deficiency reports and forwarding all non-Navy or
             misdirected deficiency reports to appropriate activities for action;



                                           9
      •   direct the appropriate inventory manager to take specific action to
          include item returns to vendors, screening, suspension, or disposal of
          existing items stocked in inventory, as warranted;

      •   provide a coordinated response of the deficiency report results to
          responsible Navy field activities; and

      •   maintain history files of deficiency report actions and related items and
          forward this information for inclusion in the automated database.

   Current Responsibilities of Naval Inventory Control Point, Philadelphia.
   The Engineering and Product Directorate, Product Quality Department, Naval
   Inventory Control Point, Philadelphia, Pennsylvania, has not performed the
   functions outlined in the instruction because the Product Quality Department had
   not received a deficiency report from the aviation depots since 1994. We
   conducted a limited test on 10 of the 20 repairable NSNs that were identified by
   deficiency reports from the 3 Naval Aviation Depots, which warranted
   screening of existing inventory. We determined that the inventory managers
   either did not receive or comply with directions to screen 8 of the 10 repairable
   NSNs. We believe that the deficiency reporting program would be well served
   by an expanded role of the Engineering and Product Directorate.

Summary
   The limited emphasis that was placed on the quality program did not permit the
   effective initiation, processing, completion, or closure of deficiency reports
   within Naval Air Systems Command aviation depots. The centralized authority
   designated to the Headquarters, Naval Air Systems Command did not effectively
   account for or coordinate deficiency report processing between the Naval
   Aviation Depots and the Naval Inventory Control Point. Providing additional
   staffing and resources to the Engineering and Product Directorate and a
   centralized office, co-located with Naval Air Systems Command inventory
   management functions, would provide for unified accountability for all required
   actions involving the deficiency reporting process. Currently, quality assurance
   departments at each Naval Aviation Depot are communicating deficiency report
   data to the Headquarters, Naval Air Systems Command during the deficiency
   report initiation, processing, completion, or closure. However, the Command
   Headquarters is not functioning as outlined in the Naval Aviation Maintenance
   Program. By not having one organization centrally accounting for deficiency
   reports in the PDREP database, appropriate corrective actions were not taken
   and not communicated to the customers who may have been receiving
   nonconforming items.




                                      10
Recommendations, Management Comments, and Audit
  Response
  A.1. We recommend that the Assistant Secretary of the Navy for Research,
  Development, and Acquisition provide the resources to the Engineering and
  Product Directorate, Product Quality Department, Naval Inventory Control
  Point, Philadelphia, Pennsylvania, for centralized management, accountability,
  control, and oversight functions for the Naval Air Systems Command
  Headquarters deficiency reports, as prescribed in the Naval Inventory Control
  Point Instruction 4400.73, “Process Quality Deficiency Reports on Aviation
  Material,” August 13, 1999.

  Management Comments. The Navy nonconcurred but proposed an alternative
  solution for the centralized management, accountability, control, and oversight of
  the Naval Air Systems Command Headquarters Product Quality Deficiency Reports.
  The Navy stated that it is developing an automated information technology system
  that it expects will centrally account and control deficiency reports from inception to
  conclusion. The Navy estimated that the proposed system will be completed and
  deployed within 18 months and, because the Inventory Control Point, Philadelphia
  is a critical partner in the automated process, there is no benefit to transfer
  functions.

  Audit Response. Although the Navy nonconcurred with the recommendation,
  actions proposed to account for and control the Naval Air Systems Command
  deficiency reporting process satisfies the intent of the recommendation.

  A.2. We recommend that the Commander, Naval Air Systems Command
  complete a one-time review of Naval Air Systems Command inventory of repair
  parts identified as deficient from the unprocessed quality deficiency reports and
  determine whether nonconforming parts are still stocked in inventory and
  should be eliminated.

  Management Comments. The Navy partially concurred and stated that it
  completed its review of the deficiency report backlog and directed stock screening
  recommendations when appropriate.

  Audit Response. Although the Navy partially concurred, the Navy comments are
  responsive. The recommendation did not imply that all deficiency reports would
  result in a stock screening action but that a determination to screen would be
  necessary.




                                          11
            B. Adequacy of Screening and Removing
               Nonconforming Items
            The Naval Inventory Control Point, Mechanicsburg, Pennsylvania,
            quality assurance staff did not establish management control procedures
            to ensure that Naval Sea Systems Command-managed items, previously
            identified as nonconforming, were completely removed from inventory.
            This occurred because quality assurance staff at the inventory control
            point did not follow up on previous quality assurance decisions to
            identify and remove nonconforming items from inventory. As a result,
            5 of the 40 NSNs we reviewed, involving as many as 331,000 potentially
            nonconforming items valued at as much as $65.9 million, were either
            issued to or remained available for issue to Navy users.

Criteria for Processing Deficiency Reports
     Naval Inventory Control Point Instruction 4440.479C (untitled), March 16,
     1998, describes the procedures for processing deficiency reports and removing
     nonconforming items from inventory. The instruction requires that the quality
     assurance specialist at the action point investigate the reported nonconforming
     items and take corrective action that may include a recommendation to the
     inventory manager to screen suspect items and remove the identified
     nonconforming item. The inventory manager is responsible for notifying
     activities that have possession of nonconforming items, ensuring that the
     nonconforming items are prohibited from use by Navy customers, and
     prohibiting the reentry of nonconforming items into inventory.

Management of the Quality Deficiency Reporting Program
     The Naval Inventory Control Point Mechanicsburg is the screening point for all
     Navy-managed items and Defense Logistics Agency-managed items except for
     aircraft parts and air-launched ordnance. The deficiency reporting process at the
     inventory control point is divided into three, separately managed programs:
     nuclear items, submarine items, and non-nuclear items. We reviewed
     94 deficiency reports closed in FY 2000 that were obtained from either PDREP
     or the local database. The 94 deficiency reports identified 40 nonconforming
     NSNs.

     Nuclear and Submarine Items. Managers of the nuclear and submarine
     programs correctly managed their respective deficiency reporting programs.
     We reviewed 28 deficiency reports for 20 nuclear NSNs and 1 deficiency report
     on 1 submarine NSN that required screening or removal from inventory.
     Quality assurance specialists in the nuclear and submarine programs took
     appropriate actions to eliminate deficient items from the supply system for the
     21 nonconforming NSNs. The quality assurance specialist properly screened the
     21 nonconforming NSNs, which related to 37,104 items on hand, valued at
     $3.3 million, as of November 2001. The quality assurance specialists also
     issued letters to applicable depots stocking the nonconforming items. For the
     nuclear items found to be nonconforming, the quality assurance specialist also
                                        12
notified all responsible staff assigned to the nuclear ships and boats. Finally, the
quality assurance specialist at the nuclear and submarine programs tracked
replies from activities regarding the stock status on the nonconforming items
that were removed from inventory and required activities to confirm that the
nonconforming items on-hand were suspended and no longer available for use.
This thorough process ensured that all inventory points and users were notified
of the potentially nonconforming items in stock, and that appropriate actions
were taken to remove the nonconforming items and prohibit their reentry into
the Navy supply system.

Non-nuclear Items. The non-nuclear quality assurance specialists and
responsible inventory managers did not take proper action to eliminate
nonconforming items from inventory or from use. The quality assurance
specialists at the non-nuclear division contacted the inventory managers to
screen and/or remove items from inventory. However, the specialists never
confirmed that the items were screened or removed. We reviewed 65 closed,
non-nuclear deficiency reports addressing 19 NSNs. Forty-five deficiency
reports addressing 5 NSNs resulted in a screen or removal from inventory. The
remaining 16 deficiency reports, related to 14 NSNs, did not require screening
or no information was available to further pursue the deficiency. Table 5 lists
the quantity and value of the five potentially nonconforming NSNs resulting in a
screen or removal from inventory.

                        Table 5. Nonconforming Items
           Item                Deficiency        Items Purchased         Total cost
                                Reports                                 (in Dollars)

Breathing device                     5                  87,095          $12,396,418
   (fire hazard)
Breathing device                   17*                 242,917              53,198,823
   (air leakage)
Life raft valve                    14                    1,074                100,881
Motor shaft                         5                       16                 12,624
Windspeed transmitter               4                       21                237,550


        Total                      45                  331,123          $65,946,296
*11 of the 17 deficiency reports were recorded as Category I deficiencies


        Notification Procedures for Screening of Nonconforming Items. The
inventory control point instruction requires the inventory managers to notify
stock points of screening actions for nonconforming items. Inventory managers
did not notify stock points to screen two of the five nonconforming NSNs where
the quality assurance specialist requested screening actions. We interviewed the
inventory managers for a motor shaft and a wind speed transmitter, and the
inventory managers could not provide documentation that messages were issued
to the stock point or to the users of the nonconforming items. In addition, the


                                           13
    quality assurance specialist at the non-nuclear division did not confirm that
    screening actions on the two nonconforming NSNs occurred.

            Accounting for Screening Actions. Inventory managers could not
    accurately account for three nonconforming NSNs that required screening. In
    addition, neither the quality assurance specialist nor the inventory managers
    were aware of the actual quantity of nonconforming items that required
    screening or removal from inventory. For example, in 1994, the Naval
    Inventory Control Point, Mechanicsburg, initiated removal of an emergency
    escape breathing device after two incidents occurred when the devices ignited
    and caught fire. During FY 2000, the inventory control point continued to
    receive deficiency reports for the breathing device although the Navy directed in
    1994 that all breathing devices be shipped back to Naval depots. Two of six
    Defense Distribution Depots had the breathing devices in inventory after
    receiving notification to return them to the Navy. One of the depots had issued
    the breathing device as recently as March 2001. Furthermore, the Navy could
    not fully account for all of the breathing devices that were purchased. We
    brought this issue to the attention of the Secretary of the Navy in our July 2,
    2001, memorandum. The Navy took appropriate action to remove the item
    from inventory and from use; therefore, we are making no recommendation
    regarding the breathing device. Our memorandum and the Navy reply are
    contained in Appendixes C and D.

    Inventory managers also could not accurately account for a deficient life raft
    valve that caused rafts to prematurely inflate. The contractor identified the
    delivery order of the specific nonconforming valves and agreed to repair them.
    The inventory control point sent a message to the three depots that stocked the
    valves. At the time the message was issued, however, the contract delivery
    order and contract modifications showed that additional activities received the
    deficient valves. The inventory control point could not accurately account for
    the number of valves that the contractor repaired. The deficiency reports and
    the contract file showed different information on the quantity of the valves, and
    the contracting officer could not reconcile the difference. The contracting
    officer acknowledged that it had been 2 years since the valves were recalled,
    and the inventory control point did not know how many valves were still in need
    of repair. Without accurate accounting for screening actions, there was no
    assurance that the nonconforming items were removed from inventory.

            Deficiency Report Database. The action point has the capability to
    track the progress of screening actions through the use of a purge code in its
    local deficiency reporting database. According to the inventory control point
    instruction, the action point is responsible for annotating in the database that the
    inventory manager removed the nonconforming item from inventory. Three of
    the five NSNs where screening actions were requested were not identified in the
    database as removed from inventory.

Adequacy of Management Controls
    The inventory control point did not have adequate management controls to
    ensure that previously identified nonconforming items were completely removed
    from inventory. The inventory control point did not follow up on previous

                                         14
       inventory removal decisions. We consider this management control weakness to
       be material. If the inventory control point does not implement a thorough
       followup system to ensure that nonconforming items do not become available
       for issue or use, the Navy will continue to receive sub-standard items that could
       be life threatening and could impact fleet readiness.

Recommendation, Management Comments, and Audit
  Response
B. We recommend that the Commander, Naval Inventory Control Point:

                1. Develop and implement a comprehensive followup system to
       track quantities of nonconforming items and, based on procurement
       quantities of the items, develop a full accounting for them.

Management Comments. The Navy concurred in principle that a comprehensive
followup system is critical to track nonconforming items but contended that the current
stock screening process meets the necessary requirements.

Audit Response. Although the Navy concurred in principle with the recommendation,
the followup system employed by quality assurance specialists and inventory managers
of the non-nuclear program was unsatisfactory. Therefore, we request that the Navy
provide additional comments in response to the final report. The comments should
identify specific requirements addressing followup actions that were found to be
deficient during this audit.

              2. Implement a notification procedure to activities that were issued
       nonconforming items and provide appropriate disposition instructions to the
       users.

Management Comments. The Navy partially concurred with the recommendation and
stated that the inventory control point ensures adequate screening notification for supply
system material through various methods including the Naval Message and the
Defective Material Summary Report.

Audit Response. Although the Navy partially concurred with the recommendation,
accounting for previously issued nonconforming items and providing for the items’
disposition were not uniformly applied at the inventory control point. Notification
procedures available to the Navy were not always used or, if used, were not retained to
account for the total quantity of previously issued nonconforming items. Coordination
among acquisition, material management, and quality assurance personnel and
recipients of the nonconforming item was deficient. Therefore, we request that the
Navy provide additional comments in response to the final report. The comments
should identify specific procedures addressing the notification to users of
nonconforming items and appropriate disposition instructions.




                                           15
           C. Adequacy of Quality Assurance
              Procedures–Items with Recurring
              Deficiencies Procured with
              Contractor Warranties
           Marine Corps Logistics Base quality assurance procedures for
           identifying, investigating, and resolving nonconforming items procured
           with contractor warranties were ineffective. This occurred because
           quality assurance specialists did not establish management control
           procedures to analyze the nonconforming items in sufficient detail to
           address the systemic cause of the deficiency. In addition, quality
           assurance specialists did not direct that items in Marine Corps depots and
           items issued to users be screened to determine whether like deficiencies
           existed. Instead, quality assurance specialists returned the
           nonconforming items to the contractor for replacement without assessing
           the nature and extent of the deficiency. As a result, the Marine Corps
           had no assurance that systemic deficiencies had been corrected. Also,
           the Marine Corps may have had as many as 8,800 items in inventory
           with a procurement value of $87.1 million that were deficient and
           unreliable. The Marine Corps will assume the financial risk for
           repairing items out of warranty.

Marine Corps Quality Deficiency Reporting Program
    Criteria for the Quality Deficiency Reporting Program. Marine Corps
    Logistics Base Policy Statement 12-00, “Product Quality Deficiency Report
    Program,” September 27, 2000, defines responsibilities and provides procedures
    for the Marine Corps to manage its quality deficiency program. The policy
    statement provides that quality assurance specialists who are assigned to the
    screening point at the Logistics Base are responsible for:

       •   maintaining an audit trail for every deficiency report received,

       •   conducting trend analyses of reported like deficiencies to determine if
           warranted essential performance characteristics of the weapon system
           and/or components are being met, and

       •   releasing stock screening messages on nonconforming items stocked at
           Marine Corps depots.

    The policy statement also provides that the Logistics Base action point is
    concurrently responsible for:

       •   investigating the cause of the nonconforming item deficiency,

       •   determining the appropriate corrective action required to preclude the
           recurrence of the reported deficiency, and


                                        16
       •   evaluating trend analyses prepared by the screening point addressing the
           nonconforming item and directing management action toward resolution
           of recurring problems or adverse quality trends disclosed in the analysis.

    FY 2000 Deficiency Reporting. The Marine Corps Logistics Base, Albany,
    Georgia, is the screening point for all Marine Corps items associated with
    ground weapon systems. Quality assurance staff at the Marine Corps Logistics
    Base reported 1,087 deficiency reports closed in FY 2000. We reviewed 272 of
    the 1,087 deficiency reports that addressed deficiencies in 30 potentially
    nonconforming NSNs. For 2 of the 30 NSNs identified as nonconforming,
    quality assurance specialists properly identified the cause of the deficiency and
    initiated screening actions for the nonconforming items to its depots. For 14 of
    the 30 NSNs, the quality assurance specialists either identified problems
    associated with the use of the item, considered the problem an isolated incident,
    or could not confirm the item's deficiency. However, for the remaining
    14 NSNs, the Marine Corps quality assurance staff did not initiate screening
    actions or determine the cause of the nonconformance. We also determined that
    Marine Corps quality assurance staff did not screen 11 of the 14 nonconforming
    items when the item was procured with a contractor warranty.

Trend Analysis for Nonconforming Items
    Marine Corps Policy. The Marine Corps policy statement addresses the use
    of trend analyses as an analytical tool when processing deficiency reports. A
    trend analysis of multiple reported deficiencies addressing a single item defect
    aids the quality assurance specialist in determining whether a systemic
    deficiency is apparent with the nonconforming item. This analysis can also
    assist in identifying a deficient contractor manufacturing process or identifying
    substandard material used to construct the item. Knowledge of the extent
    of the nonconforming items with recurring and systemic deficiencies is a key
    factor in deciding to screen the item in inventory or in the possession of Marine
    Corps users.

    Review of Multiple Deficiencies. Of the 1,087 FY 2000 deficiency reports,
    201 addressed deficiencies involving 14 Marine Corps-managed NSNs. At least
    226 of the 1,087 deficiency reports were marked “For Information Only.” We
    also determined that 14 NSNs reviewed had more than one deficiency report
    addressing a single specific deficiency, and 4 of the 14 NSNs had multiple
    deficiency reports that addressed a single, specific deficiency. Table 6 lists the
    four NSNs with multiple deficiency reports when more than a single specific
    deficiency was addressed. The table also includes the total deficiencies reported
    on the NSN during FY 2000.




                                        17
                       Table 6. Multiple Deficiency Reports
                         Deficiency Reports with Specific Deficiencies
                                                                         Total Deficiency
                       First Type of   Second Type of    Third Type of   Reports Closed
Item                    Deficiency       Deficiency       Deficiency       in FY 2000
                         Reported         Reported         Reported
Land Navigation
                           22                 15               14             100
 System
Radio Receiver             11                 2                 2               32
Satellite Navigation
                             4                3                 2               10
 Set
Power Supply                 3                 3                2               13

Marine Corps quality assurance specialists did not conduct a trend analysis to
isolate and address recurring and potentially systemic deficiencies for the NSNs
incurring multiple deficiency reports. The specialists only counted the number
of deficiency reports received for an individual NSN. In addition to the
deficiency reports citing item defects, the quality assurance staff did not pursue
any aspect of information contained in the 226 deficiency reports entitled “For
Information Only.” Information on these reports could have informed the
quality assurance staff of recurring and systemic deficiencies.

        Land Navigation System. The Marine Corps purchased 4,900 units of
the land navigation system from a 1993 contract. Quality assurance staff
received 100 deficiency reports addressing defects in the land navigation system
during FY 2000. The quality assurance staff did not analyze the deficiency
reports to determine whether recurring deficiencies were being reported. We
analyzed the 100 deficiency reports for the land navigation system and
determined that 51 deficiency reports addressed 3 specific and recurring
deficiencies. The remaining 49 deficiency reports identified 26 miscellaneous
deficiencies. The three specific and recurring deficiencies for the land
navigation system involved:

    •   liquid crystal diode screens that were broken or cracked
         (22 deficiencies),

    •   units not powering up (15 deficiencies), and

    •   units not locking onto satellites or not tracking (14 deficiencies).

We also reviewed the PDREP database to determine the prior year frequency
and type of deficiency reported for the land navigation system. Between
1995 and 2001, 86 Marine Corps activities submitted 620 deficiency reports, of
which 328 deficiency reports discussed the 3 recurring deficiencies. A trend
analysis would have alerted Marine Corps quality assurance staff that at least
three specific deficiencies prevented the land navigation system from operating
as intended. Quality assurance specialists did not recommend screening of
inventory quantities for the land navigation system because the items were


                                         18
    procured with a contractor warranty. After the warranty period expired, the
    Marine Corps had to pay the contractor $329 per unit to repair the land
    navigation system. From FY 1996 to 2001, the Marine Corps paid
    $256,620 for the repair of 780 land navigation systems no longer under the
    contractor warranty. A thorough trend analysis coupled with screening
    procedures of Marine Corps inventory would have isolated specific deficiencies
    of the land navigation system and would have initiated necessary repair prior to
    the expiration of the contractor warranty period.

        Defense Contract Management Agency. We contacted the Defense
    Contract Management Agency Office that has oversight responsibility for the
    contractor of the land navigation system. We determined that the Marine Corps
    had not notified them of the item’s recurring defects involving broken crystal
    diode screens or operational malfunctions, which could be the result of
    substandard material or faulty contractor workmanship. The office maintained
    notices of deficiencies since 1997. The Marine Corps received 455 deficiency
    reports citing defects with the land navigation system since January 1997.

Items Procured with Contractor Warranties
    Implementing Procedures. Quality assurance staff at the Logistics Base
    maintained that if an item was procured with a contractor warranty, the
    contractor was only required to repair or replace the item when it was
    determined to be nonconforming. They did not require the contractor to
    determine and report a root cause for the item nonconformance. As a result,
    quality assurance specialists initiated no investigation or analysis until after the
    contractor warranty period expired, and deficiency reports continued to be
    submitted on the item.

    Review of Warranted Items. We confirmed that 9 of the 14 nonconforming
    NSNs with multiple deficiencies were repaired or replaced by exercising a
    contractor warranty. The quality assurance specialist evaluated each
    nonconforming item on an individual basis but did not attempt to determine the
    extent or cause of the deficiency or inform depots or users of the potentially
    nonconforming items. Proper determination of the extent of the potentially
    nonconforming items should have been recommended by the quality assurance
    specialist while the contractor warranty was still valid. For example, a radar
    transmitter was not powering up to contract specifications. This nonconformity
    was reported on three deficiency reports in FY 2000. In each instance, the item
    was repaired or replaced by the contractor because it was covered by a valid
    contractor warranty. There was no evidence that the quality assurance staff
    considered:

       •   the total procurement quantity of the radar transmitter,

       •   the warranty period expiration date, or

       •   whether other radar transmitters were experiencing similar power up
           problems and would require screening actions.


                                         19
      Effective Use of Contractor Warranties. In order to take full advantage of
      protection offered for items procured with contractor warranties, the quality
      assurance specialist should be more proactive in determining the quantity of
      items that are potentially nonconforming. Furthermore, the quality assurance
      specialist should first conduct a trend analysis to properly account for the type
      of nonconformance and the quantity of items that may be affected. After
      learning the extent of the potentially nonconforming items, screening orders
      should be issued to determine the overall need for item repair or replacement
      while the warranty period is still valid.

Adequacy of Management Controls
      The quality assurance specialists at the Marine Corps Logistics Base, Albany,
      did not have adequate management controls to ensure that nonconforming items
      were analyzed in sufficient detail to address the systemic cause of the quality
      deficiency. Specifically, the quality assurance specialists did not implement
      trend analysis procedures that would adequately detect and measure the extent of
      the systemic cause of an item’s deficiency. We consider this management
      control weakness to be material. If the quality assurance specialists do not
      establish trend analyses procedures for items with multiple quality deficiencies,
      the Marine Corps will continue to stock and issue items that will subsequently
      be deemed deficient and unreliable.

Recommendation and Management Comments
C. We recommend that the Commanding General, Marine Corps Logistics Base:

              1. Develop and implement comprehensive trend analysis
      procedures that enable quality assurance staff to identify trends of reported
      potentially nonconforming items by specific deficiency.

               2. Notify the Defense Contract Management Agency when quality
      deficiency reports identify deficiencies that may be related to substandard
      or faulty workmanship.

              3. Establish procedures to screen nonconforming items, based on
      information obtained from trend analyses, while contractor warranties for
      the items are still valid.

      Management Comments. The Navy concurred and stated that the Marine
      Corps will develop and implement comprehensive procedures to ensure that
      quality assurance is in place for all weapon systems. Trend analyses of
      nonconforming items will be enhanced by improving access to the product data
      reporting and evaluation program. The Navy estimated that the comprehensive
      quality assurance program for the Marine Corps would be completed by
      September 30, 2002.




                                          20
           D. Nonconforming Defense Logistics
              Agency-Managed Items
           During the period of February 2000 to August 2001, the Navy did not
           ensure that data relating to nonconforming Defense Logistics Agency-
           managed items were posted to the Defense Distribution Depots logistical
           database for screening or removal. Data on nonconforming items were
           not transmitted because the Navy listing of the nonconforming Defense
           Logistics Agency-managed items was not electronically entered into the
           logistical database supporting the Defense Distribution Depots. As a
           result, as many as 965,000 nonconforming items valued at $29.3 million
           purchased from 372 contracts, were not screened, removed, or
           prohibited from reentry into the inventory.

Nonconforming Defense Logistics Agency-Managed Items
    Defective Material Summary Report. The Naval Inventory Control Point
    Mechanicsburg, Pennsylvania, issues the “Defective Material Summary” report,
    a bimonthly report listing nonconforming Defense Logistics Agency-managed
    items identified and used by the Navy. The listing identifies the nonconforming
    item by NSN and the contractor who supplied the item. The Defective Material
    Summary Report is a valuable tool for removing nonconforming items from
    inventory and prohibiting nonconforming items from reentering the inventory
    via customer returns. The Naval Inventory Control Point, Quality Assurance
    Division, forwards the Defective Material Summary Report listing to the Fleet
    Material Support Office, Mechanicsburg, Pennsylvania, where the data are
    electronically transferred to the Defense Information Systems Agency
    megacenters in Mechanicsburg, Pennsylvania, and Ogden, Utah. The
    megacenters process the NSNs into the depot logistical database (the
    Distribution Standard System) for depots that stock primarily Navy items, so
    that nonconforming items currently in inventory and nonconforming items
    received via customer returns can be properly identified and suspended from
    issue, if necessary.

    FY 2000 Identification of Nonconforming Defense Logistics
    Agency-Managed Items. The 6 bimonthly Defective Material Summary
    Reports for FY 2000 listed 231 NSNs that the Navy found to be nonconforming.
    We reviewed 47 of the 231 nonconforming NSNs at the Defense Distribution
    Depot, Jacksonville, Florida. Only 10 of the 47 NSNs were identified as
    nonconforming at the Jacksonville depot. We subsequently reviewed all
    231 nonconforming NSNs at the Defense Distribution Depot, Cherry Point,
    North Carolina. Only 20 of the 231 NSNs reviewed were identified as
    nonconforming at the Cherry Point depot.

    Electronic Transmission of Nonconforming Item Data. As a result of our
    review at the Jacksonville and Cherry Point depots, we contacted the Naval
    Inventory Control Point, Mechanicsburg, Pennsylvania, to determine why the
    majority of the FY 2000 listing of nonconforming NSNs were not identified on


                                      21
   the depot databases. The inventory control point discovered that although the
   Navy electronically transferred the list of nonconforming NSNs, existing
   computer firewall and access restrictions had prohibited posting of these records
   into the depot logistical database since February 2000. In addition, no followup
   inquiries were made by activities responsible for either compiling or
   transmitting the bimonthly listing of nonconforming NSNs over the
   20-month period: February 2000 to August 2001. We obtained procurement
   histories for the 231 nonconforming NSNs by the specific contractor that
   supplied the item. The 231 NSNs involved the procurement of
   964,923 individual items from 372 contracts with a total procurement value of
   $29.3 million. As a result, nonconforming items were not screened or removed
   from inventory.

   Current Distribution of Nonconforming Item Listings. The list of
   nonconforming items is currently distributed to the depots that stock primarily
   Navy items and not to the other depots that stock items for other military
   components. Thus, we reviewed 10 of the 231 nonconforming NSNs at the
   Defense Distribution Depot, Albany, Georgia, a depot that stocks items used by
   the Marine Corps. None of the 10 NSNs were identified at the Albany depot as
   nonconforming. However, Headquarters, Defense Distribution Center, New
   Cumberland, Pennsylvania, confirmed that the Albany depot did stock 5 of the
   231 NSNs during FY 2000. The Albany depot staff were not aware of the
   bimonthly Defective Material Summary Report and never received an electronic
   or paper copy. The Headquarters, Defense Distribution Center, was also not
   aware of the Defective Material Summary Report. The Naval Inventory Control
   Point staff believed that because the nonconforming item listings contained only
   Navy items, only those depots that stock primarily Navy items should receive
   the listing.

Summary
   By August 2001, the Naval Inventory Control Point directed the correction of
   electronic transmission problems that prevented the distribution of the Defective
   Material Summary Report of nonconforming items to Navy depots. During our
   subsequent visits to the Defense Distribution Depots Puget Sound, Washington,
   and San Diego, California, we verified that the report listing was updated, and
   that nonconforming items were identified and being eliminated from inventory.
   Therefore, no recommendation is being made regarding the transmission and
   use of the list for nonconforming items in Navy depots. However, the Navy
   still needs to provide the DLA Supply Centers with the listing of nonconforming
   items to ensure that screening alerts are initiated and actions are taken to
   reclassify or remove defective material from all depots. The Commander,
   Defense Distribution Center should also monitor the screening alerts to ensure
   that all depots take proper action.




                                      22
Recommendation, Management Comments, and Audit
  Response
Revised and Added Recommendations. As a result of management comments, we
revised draft Recommendation D.1. and readdressed it to the Naval Supply System
Command to provide the Defense Supply Centers with Navy Defective Material
Summary Reports. In addition, we added Recommendations D.2. and D.3. which are
addressed to the Defense Logistics Agency.

D.1. We recommend that the Commander, Naval Supply Systems Command
provide the Defense Logistics Agency Defense Supply Centers with the Navy
Defective Material Summary Reports to ensure that screening alerts are initiated
and actions are taken to reclassify or remove defective material from all depots.

D.2. We recommend that the Commanders, Defense Supply Centers serve as the
Action Points, consistent with the Joint Service Directive Instruction 4155.24,
“Product Quality Deficiency Report Program,” to ensure that screening alerts are
initiated and action is taken as soon as possible to reclassify or remove defective
material held in inventory on Defense Logistics Agency-managed items. We also
recommend that the Defense Supply Centers work with the Navy to reconcile data
concerning Defense Logistics Agency-managed items listed in the Navy Defective
Material Summary Report.

D.3. We recommend that the Commander, Defense Distribution Center monitor
Defense Logistics Agency and Military Service screening alerts to ensure that
inspection is timely, and reclassification actions are completed by the Defense
Distribution Center storage activities.

Management Comments. The Defense Logistics Agency concurred with the intent of
the draft report recommendation to ensure that valid Product Quality Deficiency
Reports be provided to Defense Distribution Centers to ensure screening actions were
complete. However, alternate actions would more effectively accomplish the actions by
having the Defense Supply Centers serve as action points and the Commander, Defense
Distribution Center monitor the screening alerts to ensure timely inspection and
completion of reclassification actions.

Audit Response. We appreciate the constructive comments and modified the
recommendations as shown above. We request that the Commander, Naval Supply
Systems Command, provide comments to Recommendation D.1. We also request that
the Defense Logistics Agency provide comments on the proposed corrective actions and
a completion date for Recommendations D.2. and D.3.




                                         23
Appendix A. Audit Process

Scope
    Work Performed. We analyzed the execution of the Naval Product Quality
    Deficiency Program. From the PDREP database, we initially extracted
    8,242 deficiency reports closed in FY 2000, comprised of 7,304 reports
    addressing deficiencies involving new procurements and 938 reports addressing
    deficiencies involving the repair or rebuild of Naval items. At the Naval
    Inventory Control Point, Mechanicsburg, Pennsylvania, and Headquarters,
    Naval Air Systems Command, Patuxent River, Maryland, we determined that
    the PDREP database did not accurately represent the FY 2000 closed deficiency
    reports (see Methodology, Use of Computer-Processed Data). At each
    screening and action point we visited, we established a universe of FY 2000
    closed deficiency reports from data available. We analyzed records from
    FY 1995 to FY 2001 relating to Marine Corps items with contractor warranties.
    We also analyzed 19 FY 2001 deficiency reports at the Jacksonville Aviation
    Depot due to the limited number of deficiency reports for FY 2000. We
    identified 4,181 deficiency reports closed in FY 2000 and analyzed the
    managerial action taken for the execution and completion of
    537 deficiency reports at the 6 Naval activities visited. We analyzed decisions
    rendered by quality assurance staff at Naval activities where deficiency reports
    were evaluated, and any subsequent actions taken by quality assurance staff for
    these deficient items.

    For our analysis of depot screening procedures for Naval-managed items, we
    analyzed 26 screening actions where the depot was instructed to screen the
    potentially defective items, and 39 screening actions where we found that the
    depot should have been instructed to screen or follow up screening the items.
    We progressively increased the review of the number of items requiring
    screening actions at each successive depot we visited by including the previous
    depots' listed items that required screening actions. In addition, we reviewed
    screening actions for the 231 FY 2000 Defense Logistics Agency-managed items
    previously deemed as defective at 6 depots. To determine the total quantity and
    unit costs of items that were potentially defective and not screened, we obtained
    procurement histories from contract files or from a commercial database that
    listed defense contract information.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in the DoD. This report provides coverage of the Defense
    Inventory Management high-risk area.

Methodology
    Use of Computer-Processed Data. To achieve the audit objectives, we initially
    used computer-processed data contained in the Navy PDREP database system.
    Except for the Marine Corps listing of deficiency reports contained in PDREP,
    we determined that the data maintained on the system was incomplete and

                                       24
    inaccurate. The table below shows the large difference between deficiency
    reports maintained on the PDREP database versus local databases. These
    differences illustrate a high error rate that casts doubt on the data's validity.
    However, because of the availability and reliability of local database
    applications, we were able to draw accurate conclusions and recommendations.

    Secretary of the Navy Instruction 4855.3A, "Product Data and Reporting
    Evaluation Program,” July 9, 1998, establishes PDREP as the uniform database
    for Naval activities reporting deficiency reports. Naval Sea Systems Command
    initially entered deficiency report information into a local database and then
    transferred the data into PDREP. Naval Air Systems Command required its
    aviation depots to forward deficiency report information to the headquarters
    where the information would be entered into PDREP. However, neither
    command's deficiency report data in PDREP accurately reflected the true
    universe of deficiency reports for FY 2000. The Marine Corps was the only
    Naval activity that entered deficiency reporting information directly into
    PDREP. The following table shows the difference between the total deficiency
    reports that were compiled in PDREP versus the total deficiency reports that
    were compiled in the activities' local databases for FY 2000.

                 Total Deficiency Reports contained in PDREP versus
                               Local Data Applications
                                             Deficiency     Deficiency Reports Local
                Naval Activity
                                           Reports PDREP            Database
     Mechanicsburg                               967                   947
     Patuxent River                              43             Cannot be determined
     Aviation Depot–Cherry Point                  0                    1029
     Aviation Depot–Jacksonville                 11                     497
     Aviation Depot–North Island                 38                     578
     Marine Corps Logistics Base-Albany         1086                   1087


    While the Naval Sea Systems Command inventory control point had
    compatibility problems between its local database and PDREP, Headquarters,
    Naval Air Systems Command did not physically enter deficiency report
    information as required. See Appendix C for details. Thus, we relied on the
    local data applications for FY 2000 closed deficiency reports for the audit.

    Audit Type, Dates, and Standards. We performed this program audit from
    March through December 2001, in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, ”Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
                                          25
comprehensive system of management controls that provides reasonable
assurance that programs are operating as intended and to evaluate the adequacy
of the controls.

Scope of the Review of the Management Control Program. We reviewed the
adequacy of the management controls addressing quality deficiency reporting for
Naval screening and action points and management controls addressing purging
of nonconforming items for depot facilities. Specifically, we reviewed the
procedures and controls used to direct the investigation and evaluation of quality
problems at Naval screening and action points. For depot facilities, we
reviewed procedures and controls used to screen nonconforming items from
depots and controls to prevent reentry of nonconforming items into depot
storage. We also reviewed management’s self-evaluation applicable to those
controls.

Adequacy of Management Controls. We identified a material management
control weakness, as defined by DoD Instruction 5010.40, at the Naval Air
Systems Command, Patuxent River, Maryland; the Naval Inventory Control
Point, Mechanicsburg, Pennsylvania; and at the Marine Corps Logistics Base,
Albany, Georgia. The Naval Air Systems Command, Patuxent River,
management controls were not adequate due to an absence of procedures
addressing the quality deficiency reporting process. The Naval Inventory
Control Point, Mechanicsburg, management controls for confirming and
necessary followup of initially identified nonconforming items were not
adequate to ensure that the items were properly removed from inventory. The
quality assurance specialists at the Marine Corps Logistics Base, Albany, did
not analyze the nonconforming items in sufficient detail, including using trend
analyses, to address the systemic cause of quality deficiencies. The alternative
action proposed by management in Recommendation A.1., if implemented, will
increase support for management, accountability, control, and oversight
functions for the Headquarters, Naval Aviation Systems Command quality
deficiency program. Recommendation B.1., if implemented, will improve the
inventory control point screening of nonconforming items. Recommendation
C.1., if implemented, will improve the quality assurance specialists’ ability to
detect and measure the extent of the systemic cause of an item’s deficiency. A
copy of the report will be provided to the senior official responsible for
management controls in the Navy and Marine Corps.

Adequacy of Management Self-Evaluation. Officials of the Naval Inventory
control points identified general deficiency reporting procedures and depot
screening actions as assessable units. However, in its evaluation, the inventory
control point officials did not identify the specific material management control
weakness identified by the audit because the inventory control point evaluation
covered a much broader area. The following table lists the activities we visited
that evaluated management controls addressing deficiency reporting and depot
screening actions and whether self-evaluations of the management controls were
performed.




                                    26
                     Management Controls–Self Evaluation

                         Deficiency         Assessable Unit
    Naval Activity
                          Reporting   Deficiency       Depot     Self-Evaluation
                          Function    Reporting      Screening     Performed
Mechanicsburg            Screening       Yes                           Yes
Patuxent River           Screening       Yes                     Undetermined
Cherry Point             Action          Yes                           Yes
Jacksonville             Action          Yes                           Yes
North Island             Action          No                            No
Marine Corps-Albany      Action          No                            No
Puget Sound              Action          No                            No
Cherry Point             Depot                          Yes            Yes
Jacksonville             Depot                          Yes            Yes
North Island             Depot                          No             No
Marine Corps-Albany      Depot                          Yes            Yes
Puget Sound              Depot                          No             No
Norfolk                  Depot                          Yes            Yes




                                       27
Appendix B. Prior Coverage

General Accounting Office
     Report No. 01-923, “Defense Inventory: Navy Spare Parts Quality Deficiency
     Reporting Program Needs Improvement,” August 16, 2001


Inspector General, DoD
     Report No. D-2002-013, “The Defense Supply Center Richmond Qualified
     Products List Program,” November 2, 2001

     Report No. D-2001-054, “Defense Logistics Agency Product Verification
     Program,” February 21, 2001

     Report No. D-2001-002, “Defense Logistics Agency Customer Returns
     Improvement Initiative Program,” October 12, 2000

     Report No. 98-063, “Defense Logistics Agency Product Quality Deficiency
     Program,” February 5, 1998


Air Force Audit Agency
     Report No. 01062009, “Commodity Quality Deficiency Management,”
     August 10, 2001

     Report No. 99062011, “Quality Deficiency Reporting,” July 7, 2000




                                      28
Appendix C. Interim Results
Memorandum on Navy Quality Deficiency
Reporting Program




                     29
30
31
Appendix D. Navy Response to Interim
Results Memorandum




                     32
33
34
___________________________________________________________________




                                   35
36
___________________________________________________________________



Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Assistant Secretary of the Navy (Financial Management and Comptroller)
Commandant, Marine Corps
  Commanding General, Marine Corps Logistics Base Albany Georgia
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Inventory Control Point
Commander, Naval Air Systems Command
  Commander, Naval Aviation Depot Jacksonville
  Commander, Naval Aviation Depot Cherry Point
  Commander, Naval Aviation Depot North Island
Commander, Naval Sea Systems Command
  Commander, Naval Shipyard Puget Sound
Commander, Naval Supply Systems Command


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          37
Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Director, Defense Supply Center Columbus
   Director, Defense Supply Center Philadelphia
   Director, Defense Supply Center Richmond
   Commander, Headquarters Defense Distribution Center
      Commander, Defense Distribution Depot Norfolk
      Commander, Defense Distribution Depot Cherry Point
      Commander, Defense Distribution Depot Jacksonville
      Commander, Defense Distribution Depot Puget Sound
      Commander, Defense Distribution Depot San Diego
      Commander, Defense Distribution Depot Albany


Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         38
___________________________________________________________________



Department of the Navy Comments




                                   39
40
41
42
     Final Report
     Reference__




     Page 10




43
44
45
Final Report   Defense Logistics Agency Comments
Reference__




Added
Recom-
mendation
D.2




Added
Recom-
mendation
D.3




                                    46
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD who contributed to the report are listed below.

Garold E. Stephenson
Terry L. McKinney
Nicholas E. Como
Gopal K. Jain
John A. Seger
Christine L. Haynes
Gwynne M. Roberts
Julie A. Yerkes
Ann L. Thompson
